          Federal Housing Finance Agency
              Office of Inspector General




Action Needed to Strengthen FHFA
Oversight of Enterprise Information
  Security and Privacy Programs




 Audit Report  AUD-2013-009  August 30, 2013
                  Action Needed to Strengthen FHFA Oversight of
                  Enterprise Information Security and Privacy Programs
                  Why OIG Did This Audit
                  Recent reports and testimony from organizations such as the Financial Stability
                  Oversight Council and the Federal Bureau of Investigation emphasize the growing
                  threat of cyber attacks against government and private sector computers and networks.
Synopsis          These attacks pose a significant risk to the safety and soundness of financial
                  organizations, including Fannie Mae and Freddie Mac (the enterprises), which store
    ———           personal protected information (PPI) for 28 million active borrowers as well as other
                  sensitive financial information. If that PPI was compromised, the enterprises, FHFA,
August 30, 2013   and the Treasury Department could be exposed to significant financial risk. Trust in
                  the enterprises would also suffer greatly, harming relations with borrowers and
                  financial institutions. FHFA is responsible for overseeing enterprise information
                  security to help mitigate the growing threat of cyber attacks, as well as enterprise
                  privacy programs to help protect sensitive borrower information. The objective of this
                  audit was to assess the effectiveness of FHFA’s oversight of those programs.

                  What OIG Found
                  Key aspects of FHFA’s oversight of enterprise information security and privacy
                  programs were ineffective during our January 2010 to November 2012 audit period.
                  The agency did not issue formal information security and privacy guidance to the
                  enterprises, complete a risk assessment for information security and privacy necessary
                  to support the annual examination plan, conduct ongoing monitoring of some key IT
                  security issues, or address some previously identified findings regarding information
                  security. FHFA began making a series of changes to the units responsible for its IT
                  examination activities in 2011 that limited the resources available to conduct this
                  work. Agency officials stated that 2012 was a transition year that presented challenges
                  in hiring staff to address skills shortages as reasons for reduced oversight. If these
                  issues persist, FHFA will be unable to provide adequate information security and
                  privacy program oversight, endangering the confidentiality, integrity, availability, and
                  reliability of crucial enterprise information systems and data and increasing the risk to
                  the safety and soundness of the enterprises.
                  Further, FHFA does not have an adequate process to support reliance on the work of
                  the enterprise internal audit divisions related to information security. Although
                  guidance states that FHFA examiners review outstanding issues and assess staff levels
                  and skills of internal auditors, these activities alone are insufficient for establishing
                  reliance. In 2011, an FHFA examination team used, but did not independently verify,
                  the work of an enterprise internal audit division as the basis for identifying issues in
                  the enterprise’s privacy program that required action. FHFA’s reliance on enterprise
                  internal audit work—without properly establishing and documenting reliance—
                  increases the risk that examination analysis and results could be based on inaccurate
                  or unsubstantiated work.
                  What OIG Recommends
                  To strengthen its oversight of enterprise information security and privacy programs,
                  FHFA should: (1) establish formal program requirements, (2) implement a workforce
                  plan for IT examination staffing, (3) complete required risk assessments,
                  (4) consistently deploy tools for monitoring IT security activities, and (5) establish
                  and document a process for placing reliance on enterprise internal audit activities.


Synopsis
    ———
August 30, 2013
TABLE OF CONTENTS ................................................................

ABBREVIATIONS .........................................................................................................................5

PREFACE ........................................................................................................................................6

CONTEXT .......................................................................................................................................7
      Enterprises Information Security and Privacy Programs..........................................................7
      FHFA Oversight of Enterprise Information Security and Privacy Programs ...........................8

FINDINGS .....................................................................................................................................11
      1.     Ineffective Oversight of Enterprise Information Security and Privacy Programs ..........11
              FHFA Did Not Perform Some Key Oversight Activities ...............................................11
              Resources Constraints Limited FHFA Oversight Activities...........................................12
              Lack of Clear Requirements Puts Information Security at Risk .....................................13
      2.     FHFA Did Not Justify Its Reliance on Internal Audit Work ..........................................14

CONCLUSIONS............................................................................................................................16

RECOMMENDATIONS ...............................................................................................................16

OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................................17

APPENDIX A ................................................................................................................................18
      FHFA’s Comments on OIG’s Findings and Recommendations ............................................18

APPENDIX B ................................................................................................................................21
      OIG’s Response to FHFA’s Comments .................................................................................21

APPENDIX C ................................................................................................................................23
      Summary of Management’s Comments on the Recommendations ........................................23

ADDITIONAL INFORMATION AND COPIES .........................................................................25




                                           OIG  AUD-2013-009  August 30, 2013                                                                4
ABBREVIATIONS .......................................................................

DEPS               Division of Examination Programs and Support

DER                Division of Enterprise Regulation

DSPS               Division of Supervision Policy and Support

FFIEC              Federal Financial Institutions Examination Council

ISO                International Organization for Standardization

MRA                matter requiring attention

PPI                personal protected information




                          OIG  AUD-2013-009  August 30, 2013                      5
PREFACE ...................................................................................

Fannie Mae and Freddie Mac store personal protected information—PPI includes social
security numbers, names, addresses, and other such data—for more than 28 million active
borrowers.1 Because PPI is frequently exploited for identity theft or other fraudulent activity,
the enterprises must maintain information security and privacy programs to ensure the safety
of individuals’ data. Such programs also help to ensure the confidentiality, integrity, and
availability of other restricted information, such as economic data, that is critical to enterprise
business processes, financial management, compliance with laws and regulation, and
reputation. Further, because FHFA and other organizations rely on this information to
perform crucial oversight activities, the data must be reliable and secure.

FHFA is responsible for effectively supervising and regulating Fannie Mae and Freddie Mac
to promote their safety and soundness. The objective of this audit was to assess the
effectiveness of FHFA’s oversight of enterprise information security and privacy programs
from January 2010 to November 2012. We are authorized to conduct audits, evaluations,
investigations, and other law enforcement activities pertaining to FHFA’s programs and
operations. As a result of our work, we may recommend policies that promote economy and
efficiency in administering FHFA’s programs and operations, or that prevent and detect fraud
and abuse in them. We believe that this report’s recommendations (along with those in prior
reports) will increase FHFA’s assurance that the enterprises are operating safely and soundly,
and that their assets are preserved and conserved.

We appreciate the cooperation of all those who contributed to this audit, which was led by
Brent Melson, Director, who was assisted by Joseph Nelson, Lars Hansen, and Andrew
Gegor.

This audit report has been distributed to Congress, the Office of Management and Budget, and
others, and will be posted on our website, www.fhfaoig.gov.




Russell A. Rau
Deputy Inspector General for Audits




1
  PPI is the enterprise term for the commonly known terms “personally identifiable information” or “nonpublic
information.”



                                  OIG  AUD-2013-009  August 30, 2013                                          6
CONTEXT ..................................................................................

In recent testimony before Congress, the executive assistant director for the Federal Bureau of
Investigation’s Criminal, Cyber, Response, and Services Branch testified that the frequency
and impact of cyber attacks on our nation’s private sector and government networks have
increased dramatically in the past decade and are expected to continue to grow.2 The Financial
Stability Oversight Council, which monitors the U.S. financial system, has also recognized
the growing threat of coordinated cyber attacks against financial services companies.3 It
recommended in its 2013 Annual Report that:

         Financial regulators continue to review and update their examination policies and
          guidance for information security in light of the evolving threat environment; and
         Government agencies enhance information sharing between the public and private
          sectors and work with the private sector to assess the effects of cyber attacks.

In this environment, it is particularly important for FHFA to ensure that the enterprises are
responding to emerging threats and safeguarding sensitive information, including PPI.

Enterprise Information Security and Privacy Programs

The enterprises are legally required to protect PPI by following the information security
guidelines of the Gramm-Leach-Bliley Act.4 These guidelines require financial institutions
to implement a comprehensive information security program to ensure the safety and
confidentiality of customer information. The guidelines do not require specific technical
controls; instead, they require developing and implementing a broad risk management
program that addresses risk identification and assessment, implementing policies and
procedures to mitigate risks, training employees, reporting, and involving and obtaining the
approval of a board of directors.

Therefore, the enterprises maintain information security programs to safeguard data, computer
systems, and facilities that process and maintain PPI and other sensitive information. Before
our audit period, FHFA had identified a number of matters requiring attention (MRAs)
regarding these programs, including the need to hire a chief information security officer;


2
 Richard A. McFeely, Executive Assistant Director, Criminal, Cyber, Response, and Services Branch, FBI,
Statement before the Senate Appropriations Committee (June 12, 2013). Accessed August 20, 2013, at
http://www.fbi.gov/news/testimony/cyber-security-preparing-for-and-responding-to-the-enduring-threat.
3
  Financial Stability Oversight Council, 2013 Annual Report (April 25, 2013). Accessed August 20, 2013, at
http://www.treasury.gov/initiatives/fsoc/Documents/FSOC%202013%20Annual%20Report.pdf.
4
    Public Law 106–102.



                                  OIG  AUD-2013-009  August 30, 2013                                       7
establish a chief information security office; develop and implement information security and
privacy management programs; and improve controls over system access management,
including user access provisioning and quarterly access recertification reviews. (See below for
more information on FHFA’s oversight of the enterprises’ programs.)

After the MRAs were issued, Fannie Mae conducted a baseline assessment of its information
security program against the International Organization for Standardization (ISO) 270001/2
frameworks for compliance.5 The ISO frameworks were adopted, and a three-year plan was
approved to build out the information security program based on the ISO framework. In
addition, Freddie Mac aligned its information security program with the ISO 270001/2
framework. The ISO standards are widely used and leveraged by national and multinational
firms, from financial institutions like Barclays to cloud computing services like Amazon.

FHFA Oversight of Enterprise Information Security and Privacy Programs

FHFA provides the enterprises with formal guidance designed to direct their activities and
help achieve mission-critical goals and objectives. Reports are provided to enterprise
management documenting the results of regular examinations, ongoing monitoring, and
special projects. FHFA examiners issue MRAs to highlight specific actions the enterprises
need to take to address identified deficiencies.

At the start of conservatorship, all information security and privacy examination work was
conducted by the Division of Enterprise Regulation (DER). Beginning in March 2011, a series
of management changes altered the division of oversight duties. From April 2011 to
September 2012, the Division of Examination Programs and Support (DEPS) was assigned
responsibility for conducting information security and privacy examinations at the enterprises.
Beginning in October 2012, responsibility for conducting information security and privacy
examinations was transferred back to DER.

In addition to issuing the annual report of examinations, DER conducts oversight activities as
follows:

       Targeted exams to assess a particular area, product, risk, or activity of an enterprise,
        typically through information-gathering meetings and review of specialized reports.



5
  ISO/IEC 27001:2005 covers various types of organizations (e.g., commercial enterprises, government
agencies, nonprofit organizations). ISO/IEC 27001:2005 specifies the requirements for establishing,
implementing, operating, monitoring, reviewing, maintaining, and improving a documented information
security management system within the context of an organization’s overall business risks. It specifies
requirements for the implementation of security controls customized to the needs of individual organizations or
parts thereof.



                                   OIG  AUD-2013-009  August 30, 2013                                           8
      Ongoing monitoring, in real time, of enterprise operations. Continuous supervision
       activities are a significant component of the supervision program. Regularly scheduled
       reports, risk metrics, and recurring meetings are used in these activities.
      Special projects, including task forces, work groups, or study committees, made up of
       examiners or analysts with specific tasks and goals.
      MRAs to verify if the enterprise has taken action required for safe and sound
       operations.

Currently, the Division of Supervision Policy and Support (DSPS) is responsible for
developing examination guidance and standards. It plays a critical role in supervisory
planning activities and advising DER regarding ongoing supervision at the enterprises. DSPS
is in the process of revamping all of the enterprise examination modules, including the IT
examination modules. As of the end of our audit fieldwork, the examination modules
remained in draft format. DSPS and DER planned to finalize their strategy, supervisory plan,
risk assessments, programs, and all other documents used to support their supervision and
oversight in 2013. Draft examination manual modules for 25 subject areas were issued in May
2012 with specific instructions that they be used for all enterprise examination activities going
forward. Three of the 25 areas pertained to IT and address, among other things:

      Guidance suggesting that an effective information security program include the
       regulated entity’s privacy program.
      Roles and responsibilities for developing and implementing an effective security
       program that succeeds in protecting regulated entity information and the systems that
       support that information.
      The security objectives to be achieved (availability of information, integrity of
       information, confidentiality of data and systems, accountability enforcing
       nonrepudiation, and assurance that security measures work as intended).
      Specific policies and processes for information security risk assessments; information
       security strategy; information security controls implementation; and information
       security monitoring, testing, and updating.

At the conclusion of our fieldwork, DSPS was “field testing” all modules.

Since 2010, FHFA has completed two targeted information security and privacy
examinations—one at Freddie Mac and one at Fannie Mae. An overall assessment of the
enterprises’ information security program was not performed, and independent testing,
particularly at the system level, was limited. FHFA management stated that they place a
heavy reliance on ongoing monitoring activities and conduct targeted examinations only if the
risk is determined to be high or based on a need established in previous work. FHFA adopted


                              OIG  AUD-2013-009  August 30, 2013                                  9
this approach without establishing and communicating to the enterprises a baseline of key
information security controls. There was no established basis for determining the specific type
of information security review to conduct. DEPS management stated that each year before
2013, DEPS performed a risk assessment on the IT universe, which included information
security and privacy at each enterprise, to determine the examination plan for the following
year. Notwithstanding potential shortcomings in the examination coverage, FHFA examiners
documented information security concerns at both enterprises, largely through review of
internal audits performed by the enterprises. These concerns are summarized below.

FHFA’s last examination of information security and privacy at Freddie Mac was limited to
the effect of the chief information security officer’s departure, controls over and management
of remote access, the employee information security awareness program, and progress on a
security access project. FHFA examiners determined that a new chief information security
officer had been hired, that controls over and management of remote access systems were
adequate, employee awareness training was conducted at appropriate intervals, and that the
security access project was progressing as planned. FHFA’s examiners concluded that privacy
was a high-risk concern, in part because privacy controls depended on information security
solutions that would not be completed until 2012–2013. FHFA’s last information security and
privacy examination of Fannie Mae, conducted in 2011 and reported in 2012, was limited to
remote access controls and the effectiveness of information security training and privacy
governance. FHFA noted that Fannie Mae needed to expand its mandatory information
security awareness training program.




                             OIG  AUD-2013-009  August 30, 2013                                 10
FINDINGS .................................................................................

1. Ineffective Oversight of Enterprise Information Security and Privacy Programs

      FHFA Did Not Perform Some Key Oversight Activities

FHFA did not effectively and consistently oversee enterprise information security and privacy
programs during our January 2010 to November 2012 audit period. First, FHFA has not
established formal requirements or guidance governing enterprise information security
programs, including the enterprises’ adoption of ISO standards. Although the agency provided
informal guidance to Fannie Mae through a number of meetings with management and
follow-up on outstanding MRAs, it did not do so for Freddie Mac. FHFA is authorized to
issue prudential management and operation standards under the Federal Housing Enterprises
Financial Safety and Soundness Act, as well as provide direction to the enterprises through
various other authorities.6 Such standards are essential for the enterprises to use for
developing and maintaining their information security programs and for FHFA examiners to
assess those programs as required by the DER Supervision Handbook. Other federal oversight
entities have established such requirements. For example, the Federal Deposit Insurance
Corporation, which oversees many commercial banks, has established and issued information
security standards for the banks it regulates as part of its standards for safety and soundness.7

Second, FHFA did not complete its annual enterprise IT risk assessment for 2012 as required
by the DER Supervisory Guide. Specifically, information security and privacy risks were not
listed and evaluated for 2012 to identify and analyze significant risks and supervisory
concerns. According to the guide, a risk assessment is conducted to provide a blueprint for
supervision on the foundation of the business profile and to provide support for a midyear
letter and the report of examination.

Thus, the 2012 Enterprise Supervision Plan for Information Technology, which summarizes
FHFA’s plans for its oversight of enterprise information technology planning and
management in support of their mission to promote the enterprises’ safety and soundness, was
developed without leveraging the results of a comprehensive IT risk assessment. FHFA
management stated that they conducted a three-day planning exercise, which led to the
development of the entire 2013 examination plan.



6
    12 U.S.C. 4513.
7
 Federal Deposit Insurance Corporation, “Appendix B to Part 364—Interagency Guidelines Establishing
Information Security Standards,” FDIC Rules, Regulations, and Related Acts (February 28, 2013). Accessed
August 20, 2013, at http://www.fdic.gov/regulations/laws/rules/2000-8660.html.



                                 OIG  AUD-2013-009  August 30, 2013                                      11
Third, in 2012, FHFA IT examiners halted key ongoing monitoring activities for information
security and privacy at the enterprises despite concerns cited in targeted examination reports
(January 2012 for Fannie Mae and February 2012 for Freddie Mac). These concerns, which
included issues related to IT governance, business continuity planning and disaster recovery,
information and network security, privacy, legacy IT infrastructure, and IT outsourcing, were
cited in FHFA’s 2012 supervision plan. In its plan, FHFA states, “We will continue to focus
our ongoing monitoring in these areas during 2012.” However, FHFA performed no related
monitoring through November 2012.

Fourth, for monitoring activities that occurred in 2010 and 2011, FHFA was unable to provide
evidence that identified information security issues were resolved. Through ongoing
monitoring in 2010 and 2011, FHFA documented issues and known vulnerabilities, including
one related to malicious code vulnerabilities at one of the enterprises. However, FHFA did not
challenge the enterprise to remediate the malicious code vulnerabilities in a timely manner.
The code was later exploited by a hacker who brought down three of the enterprise’s four
public-facing webservers. After the attack, the enterprise identified eight other applications
with PPI that contained the same vulnerabilities.

   Resources Constraints Limited FHFA Oversight Activities

DER officials said that insufficient resources and technical skills prevented them from
developing formal information security and privacy guidance for the enterprises and from
completing the 2012 risk assessment and supervision plan. They also stated that there was no
hiring plan designed to fill shortages in technical skills. FHFA has since developed a
workforce plan to address the staffing issues, but has not fully implemented the plan. FHFA
has engaged a contractor to help develop and complete supervisory examination policy,
guidance, and standards.

In addition, the changes made to FHFA’s oversight units, including transitioning activities
from DER to DEPS and the additional management changes made beginning in 2011,
coincide with the drop-off in monitoring and follow-up activities. In 2010, FHFA examiners
were actively involved with the oversight of the information security and privacy programs at
the enterprises. They met with enterprise officials monthly, wrote memos, worked on
remediating information security and privacy MRAs, and raised numerous concerns regarding
the status of enterprise information security and privacy programs. A similar level of
oversight continued for the first quarter of 2011, at which time the reorganization was
conducted and key management and examiners responsible for overseeing the enterprise
information security and privacy programs departed.

In the third quarter of 2011, FHFA conducted its targeted examinations of the programs with
the help of DEPS staff. An MRA was issued regarding Freddie Mac’s privacy program and


                             OIG  AUD-2013-009  August 30, 2013                                12
the supervisory rating for the program was rated “Significant Concerns.”8 According to FHFA
management, no ongoing monitoring work related to information security was conducted,
other than remediation work associated with the MRA. Specifically, an FHFA official
reported being directed by FHFA management to forgo ongoing monitoring activities in lieu
of completing the schedule of targeted examinations for 2012. FHFA officials also attributed
the agency’s lack of follow-up on issues identified during previous years’ ongoing monitoring
activities to the fact that they did not consistently deploy automated tools to track and monitor
those issues.

    Lack of Clear Requirements Puts Information Security at Risk

Because FHFA has not defined and issued clear regulatory requirements for information
security and privacy, the agency cannot fully determine the adequacy of the enterprises’
compliance with the ISO standards. Moreover, without a properly completed and approved IT
risk assessment, FHFA may not focus its limited resources on the highest information security
priorities nor be prepared for the upcoming examination period. In particular, high-risk areas
may be excluded from the examination scope. In addition, the IT supervisory plan may not be
comprehensive and may exclude critical security components. As such, the enterprises may be
at greater risk of cyber attacks against their computers and networks, potentially endangering
the confidentiality, integrity, availability, and reliability of information systems and sensitive
information and increasing the risk to their safety and soundness.




8
  “Significant Concerns” is defined by FHFA as deficiencies that are complex, potentially high risk, and
require significant remediation efforts.



                                   OIG  AUD-2013-009  August 30, 2013                                    13
2. FHFA Did Not Justify Its Reliance on Internal Audit Work

FHFA does not have an adequate process to support reliance on the work of the enterprises’
internal audit divisions. FHFA IT Risk Management Program Guidance directs examination
teams to “review internal audit reports for outstanding issues relating to information
technology risk management program” and “determine if the internal audit staff is adequate in
number and is technically competent to accomplish its mission.” However, these activities
alone are insufficient for establishing formal reliance unless supplemented by verification
procedures associated with specific audit work performed and compliance with professional
standards on those audits, particularly if the audit results are the basis for examination
conclusions and findings.9

FHFA’s IT Risk Management Program is based on Federal Financial Institutions Examination
Council (FFIEC) examination standards, which provide guidance on the activities that
examiners should take to justify placing reliance on the work of internal audit. 10 The FFIEC
guidance includes a two-tiered system to help examiners determine the quality and
effectiveness of an IT audit function. Specifically, the guidance includes objectives and
procedures to determine:

     (1)   If the institution has implemented an effective audit function that may be relied
           upon to identify and manage risks; and

     (2)   If the audit work may be relied upon in determining the scope of the IT
           examination for those areas.

The guidance states that examiners should review past reports for outstanding issues, previous
problems, or high-risk areas with insufficient coverage related to IT; determine the
competency and sufficiency of the IT audit staff; and review work papers for completeness
and compliance with standards. The Federal Reserve Board of Governors has also issued
examination guidance on the Federal Reserve supervisory assessment of the overall
effectiveness of an institution’s internal audit function and considerations relating to the
potential reliance by Federal Reserve examiners on an institution’s internal audit work.11 The
9
 External auditors auditing the financial statements of the enterprises also have procedures related to reliance
on internal audit functions. See American Institute of CPAs, “The Auditor's Consideration of the Internal Audit
Function in an Audit of Financial Statements,” Statement on Auditing Standards 65. Accessed June 21, 2013,
at http://www.aicpa.org/Research/Standards/AuditAttest/DownloadableDocuments/AU-00322.pdf. SAS 65
provides guidance on considering the work of internal auditors and on using internal auditors to provide direct
assistance to the auditor in an audit performed in accordance with generally accepted auditing standards.
10
  FFIEC, IT Examination Handbook (April 2012). Accessed August 20, 2013, at
http://ithandbook.ffiec.gov/ITBooklets/FFIEC_ITBooklet_Audit.pdf.
11
  Board of Governors of the Federal Reserve System, “Section 5.B: Relying on the Work Performed by
Internal Audit,” Supplemental Policy Statement on the Internal Audit Function and Its Outsourcing (January
13, 2013). Accessed August 20, 2013, at http://www.federalreserve.gov/bankinforeg/srletters/sr1301a1.pdf.


                                   OIG  AUD-2013-009  August 30, 2013                                            14
Federal Reserve guidance directs Federal Reserve examiners to review work papers when
relying on internal audit work:

       Work papers document the work performed, observations and analyses made,
       and support for the conclusions and audit results. The work papers should
       contain sufficient information regarding any scope or audit program
       modifications and waiver of issues not included in the final report.

In addition, the Federal Reserve guidance states that:

       Examiners may choose to rely on the work of internal audit when internal
       audit’s overall function and related processes are effective and when recent
       work was performed by internal audit in an area where examiners are
       performing examination procedures.

Nonetheless, Freddie Mac’s DER examination team relied solely on the work of Freddie
Mac’s Internal Audit division as the basis for its 2011 MRA on Freddie Mac’s privacy
program. It did so without establishing or documenting a basis for reliance as called for in the
FFIEC and Federal Reserve guidance. Moreover, FHFA was unable to provide evidence that
independent verification work was conducted by the core examination team to support the
issues captured within the privacy MRA. FHFA’s continued reliance on enterprise internal
audit work—without establishing a basis for reliance including verification procedures (e.g.,
review of work papers) on specific audits—increases the risk that examination analyses and
results could be based on incomplete, inaccurate, or unsubstantiated work and result in poor
examination planning, execution, or reporting.




                              OIG  AUD-2013-009  August 30, 2013                                 15
CONCLUSIONS ..........................................................................

FHFA’s oversight of enterprise information security and privacy programs has not been
sufficient to ensure the safety and soundness of the enterprises. The absence of formal
guidance, incomplete risk assessment, and lack of ongoing monitoring and follow-up has left
FHFA inadequately informed about the state of information security and privacy controls.
When the enterprise programs were undergoing major changes, FHFA was not actively
engaged with enterprise management. Such a time is when guidance is needed the most.
Further, identified risks were never followed up on, which potentially led to a vulnerability
being exploited. FHFA must ensure that identified risks are documented, followed up on, and
considered for future activities. In addition, a robust risk assessment and ongoing monitoring
program related to information security and privacy must be established. Such a program
should help establish complete coverage of risks identified by the enterprises and FHFA
examiners, in addition to following existing FHFA policies.




RECOMMENDATIONS ...............................................................

To strengthen its enterprise information security and privacy programs, FHFA should:

   1. Define and issue enterprise information security and privacy program requirements.

   2. Implement the workforce plan and ensure the plan of action addresses the need to
      have an adequate number of IT examiners. Specifically, FHFA should provide an
      appropriate level of management oversight during the annual supervisory examination
      planning and execution processes to ensure completion of the annual plan and
      compliance with established IT examination policies and procedures.

   3. Ensure that planning for future IT examinations is based on fully executed risk
      assessments, as required by FHFA policy.

   4. Consistently deploy the automated tools needed for ongoing monitoring and tracking
      of previously identified security and privacy issues in order to enhance the efficiency
      and effectiveness of the examination process.

   5. Establish and document a process for placing formal reliance on the work of internal
      audit divisions at the enterprises.




                             OIG  AUD-2013-009  August 30, 2013                                16
OBJECTIVE, SCOPE, AND METHODOLOGY .................................

The objective of this performance audit was to assess the effectiveness of FHFA’s oversight
of enterprise information security and privacy programs.

We performed fieldwork for this audit from December 2012 through April 2013. We
conducted this audit at FHFA’s office in Washington, D.C., Fannie Mae’s office in
Washington, D.C., and Freddie Mac’s office in McLean, Virginia. We interviewed FHFA,
Fannie Mae, and Freddie Mac personnel.

The scope of our audit included all examinations related to information security and privacy
conducted at the enterprises from January 2010 to November 2012. We relied on computer-
processed and hardcopy data from FHFA.

To achieve the audit objective, we interviewed FHFA and enterprise management and
reviewed documentation provided by FHFA. We also assessed the internal controls related
to our audit objective. Internal controls are an integral component of an organization’s
management. They provide reasonable assurance that the following objectives are achieved:

      Effectiveness and efficiency of operations, and
      Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives, and include the processes and procedures for planning,
organizing, directing, and controlling program operations as well as the systems for
measuring, reporting, and monitoring program performance. Based on the work completed
on this performance audit, we consider weaknesses in FHFA’s supervisory oversight of
enterprise information security and privacy programs to be significant in the context of the
audit’s objective.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that auditors plan audits and obtain sufficient,
appropriate evidence to provide a reasonable basis for the findings and conclusions based on
the audit objective. We believe that the evidence obtained provides a reasonable basis for the
findings and conclusions included herein, based on our audit objective.




                             OIG  AUD-2013-009  August 30, 2013                                17
APPENDIX A .............................................................................
FHFA’s Comments on OIG’s Findings and Recommendations




                          OIG  AUD-2013-009  August 30, 2013                         18
OIG  AUD-2013-009  August 30, 2013   19
OIG  AUD-2013-009  August 30, 2013   20
APPENDIX B..............................................................................

OIG’s Response to FHFA’s Comments

On August 6, 2013, FHFA provided comments on a draft of this report, agreeing with the
recommendations and identifying FHFA actions to address them.

FHFA stated it concurs with the recommendations and has adopted a new approach to
supervision subsequent to the audit period ending November 2012. FHFA stated that
supervisory teams have been establishing ongoing monitoring programs, conducting
examinations, preparing business profiles, developing risk assessments for supervisory
planning, and working to establish information systems to support the current supervisory
program.

FHFA plans to implement the audit recommendations by finalizing examination guidance to
its staff that sets forth expectations for the evaluation of programs to manage IT risk.12 The
final examination guidance will be shared with the enterprises. FHFA will establish and issue
to the enterprises formal supervisory expectations for enterprise information security and
privacy programs. FHFA has increased its IT examination staff, and stated that it has
increased management oversight of IT risks during the annual supervisory examination
planning and execution processes, and will identify supervisory risks that will be used to
prepare the risk-based 2014 examination plan. FHFA stated that it is in the process of
providing the technology to FHFA’s supervision divisions to produce a consistent and unified
document management and business collaboration solution that will facilitate an automated
capability to monitor and track enterprise supervisory issues. Until the technology is fully
implemented, FHFA will communicate to its examination staff protocols for escalating and
monitoring issues arising from supervisory activity. Finally, FHFA will issue guidance to its
examination staff regarding when reliance on the work of enterprise internal audit is
appropriate and how such reliance should be documented.13

We consider FHFA’s actions to be sufficient to resolve the recommendations, which will
remain open until we determine that the agreed corrective actions are completed and

12
   FHFA recently released final examination modules addressing business continuity planning, enterprise-wide
risk management, and information technology risk management. These modules are general targeted exam
guidance and not specific to information security or privacy. An advisory bulletin targeted for April 15, 2014,
will more specifically address information security and privacy.
13
  The term “reliance” in the context of financial institution supervision differs from that used in auditing. For
purposes of our report, we use the term based on FFIEC guidance (see footnote 10). While external auditors
performing financial statement audits often rely on assistance from internal audit functions, FHFA stated that
examiners will not rely on enterprise internal audit work in a fashion similar to that used by the auditing
profession and accept findings without performing critical independent analysis.



                                    OIG  AUD-2013-009  August 30, 2013                                            21
responsive to the recommendations. We have attached the agency’s full response (see
Appendix A), which was considered in finalizing this report. Appendix C provides a summary
of management’s comments on the recommendations and the status of agreed corrective
actions.




                            OIG  AUD-2013-009  August 30, 2013                             22
APPENDIX C ..............................................................................

Summary of Management’s Comments on the Recommendations

This table presents management’s response to the recommendations in our report and the
status of their resolution as of the date when the report was issued.

                                                       Expected
  Rec.             Corrective Action:                 Completion   Monetary   Resolveda   Open or
                                                                                                b
  No.              Taken or Planned                      Date      Benefits   Yes or No   Closed
         FHFA has finalized guidance, including
         the IT Risk Management module, and
         will formally issue supervisory
   1                                                  4/15/2014       $0        Yes        Open
         expectations and an advisory bulletin
         for enterprise information security
         and privacy programs.
         FHFA increased its IT examination
         staff in 2013 and clarified that it will
         hire an additional IT examiner by
         9/30/2014. FHFA also agrees to
   2     consider and document changes to its         9/30/2014       $0        Yes        Open
         oversight of IT risk as part of its annual
         examination planning process. This
         action will be completed by
         12/31/2013.
         FHFA agrees to issue examination
         guidance to formalize and clarify
   3     expectations related to IT                   12/31/2013      $0        Yes        Open
         examination planning and risk
         assessments.
         FHFA agrees to implement technology
         to produce a consistent and unified
         document management and business
         collaboration solution to monitor and
   4     track enterprise supervisory issues. In      12/31/2013      $0        Yes        Open
         the interim, DER will issue guidance to
         examination staff for escalating and
         monitoring issues arising from
         supervisory activity.
         FHFA agrees to issue guidance on
         placing formal reliance on the work of
   5                                                  12/31/2013      $0        Yes        Open
         internal audit divisions at the
         enterprises.


                                OIG  AUD-2013-009  August 30, 2013                                23
a
  Resolved means: (1) management agrees with the recommendation, and the planned, ongoing, or completed
corrective action is consistent with the recommendation; (2) management does not agree with the recommendation,
but alternative action meets the intent of the recommendation; or (3) management agrees to the monetary benefits, a
different amount, or no ($0) amount. Monetary benefits are considered resolved as long as management provides an
amount.
b
  Once we determine that the agreed corrective actions have been completed and are responsive to the
recommendations, the recommendations can be closed.




                                   OIG  AUD-2013-009  August 30, 2013                                           24
ADDITIONAL INFORMATION AND COPIES .................................

For additional copies of this report:

      Call: 202–730–0880
      Fax: 202–318–0239
      Visit: www.fhfaoig.gov



To report potential fraud, waste, abuse, mismanagement, or any other kind of criminal or
noncriminal misconduct relative to FHFA’s programs or operations:

      Call: 1–800–793–7724
      Fax: 202–318–0358
      Visit: www.fhfaoig.gov/ReportFraud
      Write:
                FHFA Office of Inspector General
                Attn: Office of Investigation – Hotline
                400 Seventh Street, S.W.
                Washington, DC 20024




                              OIG  AUD-2013-009  August 30, 2013                         25
